                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: MOO050025                                                                    Page 1 of 2



          The initial allegation was an appearance of duplicate funding in federally supported research
          work of the subject.' This allegation evolved to include allegations of false statements made in
          annual and final reports submitted to supporting federal agencies, with overlapping claims of
          support in those reports, and a pattern of acknowledgements in publications that concealed the
          productivity of the research effort.

          In December 1999, a program officer at NSF2noted problems with the subject's attribution and
          acknowledgement practices, and emphasized to him the importance of accurate attribution and
          acknowledgment with respect to his federal support. The subject's practices of inaccurate
          attribution and acknowledgement continued. In March 200 1, the record shows that another NSF
          program officer3emphasized to the subject the importance of proper attributions and
          acknowledgements. Despite the second reminder, inaccurate attributions and acknowledgements
          continued, particularly with respect to the joint contributions of federal agencies in supporting
          the subject's research. These continued specific inaccuracies in attribution and
          acknowledgements were discussed in our May 2,2002 letter to the subject. In responses to the
          NSF program officer in December 1999 and to our letter of May 2002, the subject claimed that
          inaccuracies in attribution and acknowledgement were simple errors and oversight, and was able
          to provide corrected information. However, after each contact, he reverted to his practices of
          inaccurate attribution and acknowledgement. For example, additional inaccurate attributions of
          NSF support appeared in a final report submitted to NSF after our May 2,2002 letter.

          The recidivism of the subject led us to contact the University to explore actions that could be
          taken to ensure correct attribution and acknowledgments by the subject. The University agreed
          to:
                     a.    Correct annual and final reports for previous NSF grants of the subject to
                           accurately reflect results obtained with the Federal support, and to remove any
                           improper duplicative descriptions of research.
                     b.    To the extent practicable, make corrections to the published record of
                           acknowledgements of Federal support for the subject's research.




           ' redacted.
            redacted.
            redacted.



I'
 NSF OIG Form 2 (1 1/02)
.
-


                                               OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM




           c.      Implement an internal review procedure within the University to ensure that
                   annual and final reports submitted by the subject are accurate, and that
                   publications of the subject properly acknowledge Federal support.

    We note that the review procedure described in Part c. is open-ended, and applies to both
    publications and to annual and final reports. This internal university review should prevent
    recurrence of inaccurate attributions and acknowledgements, protecting the interests of NSF in
    providing accurate peer review of proposals by reviewers and program officers, as well as
    providing an accurate published record of NSF support of the subject's research.

    Accordingly, this case is closed.
